RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19Ford Motor Company,
Petitioner,
v.
United States of America,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Peter D. Keisler, certify that
the Petition for a Writ of Certiorari in the foregoing case contains 8,998 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 13, 2020.
/s/ Peter D. Keisler
PETER D. KEISLER
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

